                    May 30, 2000

                    PATRICIA M. GIBERT
                    VICE PRESIDENT RETAIL, CONSUMER AND SMALL
                     BUSINESS

                    SUBJECT:	 Postal Service Dallas District Plan for Retail
                              Operations Performance
                              (Report Number MK-LA-00-001)

                    This letter advisory report presents the results of our review
                    of the Postal Service's Dallas District, Retail Operations
                    (Project Number 00RA002RG000). The report responds to
                    a request from the vice president, Retail, Consumer and
                    Small Business to review the implementation of the Dallas
                    District's Plan for Retail Operations Performance.

Results in Brief	   In accordance with program guidance, Dallas District
                    managers were effectively making progress to implement
                    the initial phase of the Postal Service Plan for Retail
                    Operations Performance by the end of fiscal year 2000. As
                    part of its implementation efforts, the district created a team
                    that assessed its retail operations and developed a retail
                    operations improvement plan. The team identified sales
                    skills and product knowledge as the district’s major retail
                    weaknesses. To address these weaknesses, the team
                    developed a pilot program to provide training to postal
                    facility managers and window clerks in sales skills and
                    product knowledge.

                    At the time we completed our review, the team was
                    assessing the correlation between the additional sales skills
                    and product knowledge training and retail revenue to
                    determine the focus needed for additional retail operations
                    training.

Background          The Plan for Retail Operations Performance is a Postal
                    Service national initiative to improve retail profitability and
Dallas District Plan for                                                             MK-LA-00-001
 Retail Operations Performance


                                 performance. The Plan for Retail Operations Performance
                                 was developed at the request of the vice president, Retail,
                                 Consumers and Small Business and included four levels of
                                 implementation. The first three levels identified specific
                                 metrics to measure retail operation performance in the field.
                                 Level four represent an optimal desired state of
                                 performance at the end of the first three levels. Our review
                                 focused on level one, which established requirements for
                                 minimum basic retail service through the following
                                 initiatives:

                                 •	 Cleaning facilities, displaying merchandise and
                                    promotional material, making sure core products and
                                    services are available, and effectively managing product
                                    inventory.

                                 •	 Establishing and adhering to standard retail operating
                                    procedures, clearly communicating job requirements,
                                    providing necessary training, setting unit retail revenue
                                    and customer service targets and communicating the
                                    targets to employees.

                                 •	 Mapping market profiles of the top 20 percent of revenue
                                    markets targeted, expanding the use of alternate access
                                    points and involving retail marketing in the facility five-
                                    year plans.

                                 •	 Reporting retail revenue/cost and national costing
                                    analysis on a weekly basis.

                                 Level one is scheduled to be implemented by the end of
                                 FY 2000 and levels two through four are scheduled to be
                                 implemented by the end of FY 2003.

 Objective, Scope, and           The objective of this audit was to assess the Dallas District's
 Methodology                     progress in implementing the Plan for Retail Operations
                                 Performance. To accomplish our objective, we interviewed
                                 the District Plan for Retail Operations Performance Team
                                 members and personnel at ten post offices in the Dallas
                                 District. The selected post offices accounted for
                                 approximately $157 million of the $258 million (61 percent)
                                 of FY 1999 total retail revenue for the Dallas District. We




                                                  2
Dallas District Plan for                                                                            MK-LA-00-001
 Retail Operations Performance


                                   also used results of Mystery Shopper Reports1 for the first
                                   quarter of FY 2000. Program guidance identified the
                                   Mystery Shopper Report as a measurement tool the District
                                   could use to assess their implementation of the Plan for
                                   Retail Operations Performance. However, we did not
                                   validate any of the results from the Mystery Shopper Report.

                                   This review was conducted from October 1999 through
                                   May 2000 in accordance with the President’s Council on
                                   Integrity and Efficiency, Quality Standards for Inspections.
                                   We discussed our conclusions and observations with
                                   management officials and included their comments, where
                                   appropriate.

    Implementation of              At the time of our review, the Dallas District was in the initial
    Dallas Retail                  phase of implementing the Postal Services Plan for Retail
    Operations                     Operations Performance. In accordance with the plan, the
    Performance                    Dallas District created a Retail Operations Performance
                                   Team to improve profitability and performance of retail
                                   operations. The team's initial focus was to assess the
                                   district’s retail operations and to develop an action plan for
                                   improving retail operations. The district's action plan
                                   included an incremental approach to improve retail
                                   operations in the areas of customer service, employee
                                   skills, access, and profitability.

                                   To assist in assessing retail operations, district officials used
                                   the Postal Service National Mystery Shopper Report for the
                                   first quarter of FY 2000. Using this report the team
                                   determined that sales skills and product knowledge were
                                   the weakest areas of retail performance. Mystery Shopper
                                   scores2 for the first quarter of FY 2000 showed that the
                                   Dallas District score for sales skills and product knowledge
                                   was 13.6 percent versus the district goal of 64.2 percent.
                                   The national Mystery Shopper score for sales skills and
                                   product knowledge was 20 percent versus a 51.2 percent
                                   national goal. The district's Plan for Retail Operations
                                   Performance is designed to improve basic retail service by
                                   the end of FY 2000 and to reach an optimal level of retail
                                   performance by the end of FY 2003.



1
  Mystery Shopper Reports rate operational efficiency, employee sales skills and product knowledge, courtesy and 

professionalism, retail products and services, and facility appearance. 

2
  The precision of Mystery Shoppers scores was not reviewed. 





                                                         3
Dallas District Plan for                                                            MK-LA-00-001
 Retail Operations Performance


                                 To improve Mystery Shopper scores, the district
                                 judgmentally selected four postal facilities where employees
                                 would receive additional training. Managers of the selected
                                 postal facilities received program awareness training to help
                                 employees understand and improve performance. The
                                 training focused on the five questions that make up the
                                 sales skills and product knowledge section of the Mystery
                                 Shopper Report, as follows:

                                 •	 How soon do you need this article to arrive?
                                 •	 How much insurance do you need?
                                 •	 Do you need proof of delivery?
                                 •	 Would you like a book of stamps while you are here
                                    today?
                                 •	 Will you be using your credit or debit card?

                                 In addition, facility managers and window clerks were given
                                 verbal response training designed to generate additional
                                 revenue through the sale of expedited services, insurance,
                                 delivery confirmation, and other postal product services.
                                 The test period for the pilot program was scheduled to end
                                 on May 19, 2000.

                                 Furthermore, the district trained additional personnel to
                                 conduct "Mystery Shops" at the selected postal facilities, as
                                 customers, to assess the performance of the retail
                                 operations. The results of their visits were intended to
                                 assist management in focusing training on specific
                                 weakness identified at the facilities. According to the Plan
                                 for Retail Operations Performance team coordinator, the
                                 results of the district Mystery Shops at the four selected
                                 units were to be evaluated to determine the correlation
                                 between scores for sales skills and product knowledge and
                                 retail revenue.

                                 District postal officials also developed a program overview
                                 that was briefed to district postmasters. The briefing
                                 included a description of program requirements and
                                 responsibilities. Postmasters were also provided a manual
                                 that included guidance for setting and achieving retail goals
                                 and managing retail performance, including the
                                 performance of window clerks. While Mystery Shopper
                                 scores had not been reevaluated before the completion of
                                 our review, the district planned to reevaluate its scores
                                 before the end of May 2000. Based on our review of



                                                  4
Dallas District Plan for                                                           MK-LA-00-001
 Retail Operations Performance


                                 actions taken to improve the scores, we concluded that the
                                 Dallas District managers were effectively making progress
                                 to implement level one of its Plan for Retail Operations and
                                 Performance.

                                 We appreciated the cooperation and courtesies provided by
                                 your staff during the review. If you have any comments on
                                 this report, please forward them to this office no later than
                                 June 6, 2000. If you have any questions, please contact
                                 Larry Chisley, director, Marketing or me at (703) 248-2300.



                                 Robert L. Emmons
                                 Acting Assistant Inspector General
                                  for Business Operations

                                 Attachment

                                 cc: John R. Gunnels




                                                  5
Dallas District Plan for             MK-LA-00-001
 Retail Operations Performance




 Major Contributors to
 This Report




                                 6
Dallas District Plan for         MK-LA-00-001
 Retail Operations Performance
